                                                            United States Department of State
                                                            and the Broadcasting Board of Governors

                                                            Office of Inspector General


                                                                   JUl   ~52011



MEMORANDUM

TO: 	            CIO - Susan Swart       £f1. /~;/ _

FROM: 	          OIG - Harold W. GeiseV' ~

SUBJECT: 	       Management Letter Related to Review ofDepartment ofState Information
                 Security Programfor FY 2010 (AUD/IT-11-26)

Attached for your review and action is a copy of the subject report. Williams, Adley &
Company, an independent external auditor, at the direction of the Office ofInspector General,
prepared this management letter. Based on your response, OIG considers Recommendation 1
closed. However, please provide your response to the report and information on actions taken or
planned for Recommendation 2 within 30 days of the date of this memorandum. Actions taken
or planned are subject to followup and reporting in accordance with the attached compliance
response information.

OIG incorporated your comments as appropriate within the body of the report and included them
in their entirety as Appendix A.

OIG appreciates the cooperation and assistance provided by your staff during this audit. If you
have any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for Audits,
at (202) 663-0372 or Jerry Rainwaters, Director, Information Technology Division, at (703) 284­
1841 or by email at rainwatersJ@state.gov .

Attachments: As stated.
           (b) (6)
cc: DS ­
               UNCLASSIFIED





      Management Letter Related to
      Review of Department of State
Information Security Program for FY 2010


               AUD/IT-11-26 

                July 2011 





        Williams, Adley & Company, LLP 

               1250 H Street, NW 

                   Suite 1150 

              Washington, DC 20005 





               UNCLASSIFIED

                                             UNCLASSIFIED





                           WILLIAMS
                           ADLEY
                                                                                  June 14. 2011




Office of Inspector General
u.s. Departmenl of Slllie
Woshington, D.e.

Williams, Adley & Comp,my, LLI' (rerem:d 10 II!! "we" in this lelle r). is plellscd 10 provide the
Onice o[lnspector Generul (010) the management leiter pertaining 10 inlormation security control
issues that were nOI reported during our FY 20 I 0 review of the Department of State's (Department)
InfOIT1'l."tion Security I'roll,.,.rn. We rt:v;""""d the Dep><r1rncn t" " [nrorm ... lion S .....,uri ty ProS""'Tn " "
required hy the Federal Information Security Management Act and in accordance with Office of
Management and Budget and Nntionallnstitute of Standards and Technology regu lations and
stllndards.

This review of the additional information security control issues was performed under Contract No.
SAQMMAI0F2 159, We communicated the rCSl1lts of our review lind the re lated findings and
......,..,mm'-'''<h. , io"" 10 Ihe n <:J, .. rlmenl's Oniee of InS!'(,..,lor n ""cm1.

We appreciate the cooperation provided by Department persomlel during the review, If you have
any questions, please contact Ben Nukhavanit, Senior IT Audit Manager, or Hob Fulkerson, IT
Audit Director. at (202) 37 1· 1]97.




                                    WILLIAMS. AD LEY & COMPANY·OC, llP
                           Management Con.ultantsICertfflud Public Accountanls
 1250 H Street, NW, Suite 1160 • Wash in gton, DC 20006 • (202) 371·1397 • Fax: (202) 371 ·9161




                                          UNCLASSIFIED

                                       UNCLASSIFIED



                                    Management Letter

Information Security Control Issues

       Williams, Adley and Company, LLP (referred to as “we” in this management letter),
conducted, on behalf of the Office of Inspector General (OIG), an independent evaluation of the
Department of State’s (Department) Information Security Program as required by the Federal
Information Security Management Act (FISMA) and in accordance with Office of Management
and Budget (OMB) and National Institute of Standards and Technology (NIST) regulations and
standards.

        In addition to the findings identified in the FY 2010 report Review of Department of State
Information Security Program (AUD/IT-11-07, November 2010), we identified two additional
information security weaknesses that require your attention and that are discussed individually
within this report:

      Security Training – Lack of maintenance of classified information nondisclosure
       agreements.
      Contingency Planning – Lack of evidence for enterprise-wide Business Impact Analysis
       (BIA) for Primary Mission Essential Functions (PMEF).

       Although the recommendations to the draft management letter were addressed to the
Bureau of Diplomatic Security (DS), the Bureau of Information Resource Management (IRM)
presented its “coordinated” response with DS and the Bureau of Administration and provided a
“consolidated reply” to the recommendations, which is in Appendix A.

Background

        The FY 2010 report measured the Department’s security program against the standards
contained in NIST Federal Information Processing System (FIPS) Publication (Pub) 200,
Minimum Security Requirements for Federal Information and Information Systems. This
publication is applicable to all information within the Federal Government and all Federal
information systems and is the basis for the application of the security controls defined in NIST
Special Publication (SP) 800-53, revision 3, Recommended Security Controls for Federal
Information Systems. The requirements in FIPS Pub 200 are consistent with those contained in
section 8b(3) of Office of Management and Budget (OMB) Circular A-130, Management of
Federal Information Resources, as analyzed in appendix IV, “Analysis of Key Sections,” of the
circular. Supplemental information on OMB Circular A-130 is provided in appendix III of the
circular.

       Security control weaknesses directly related to FISMA were provided to the Department
in OIG’s November 2010 report (AUD/IT-11-07).



                                                1

                                       UNCLASSIFIED
                                             UNCLASSIFIED



Scope and Methodology

       We conducted the review from June through September 2010 and in accordance with
FISMA, OMB, and NIST guidance. We and OIG believe that the evidence obtained provides a
reasonable basis for the findings and conclusions represented in this letter.

       We used the following laws, regulations, and policies to evaluate the adequacy of the
controls in place at the Department:

       OMB Memorandums M-02-01, M-04-04, M-06-19, and M-10-15.1
       Department policies and procedures.
       Federal laws, regulations, and standards (such as the Computer Security Act of 1987;
        FISMA; and OMB Circular A-130, appendix III).
       NIST SPs, FIPS Pubs, other applicable NIST publications, and industry best practices.

       The weaknesses we identified and the related recommended corrective actions are as
described.

Lack of Maintenance of Classified Information Nondisclosure Agreements

        The Department did not obtain signed copies of Standard Forms (SF) 312, Classified
Information Nondisclosure Agreement, for four of 25 new employees included in our sample for
testing. The Foreign Affairs Manual (FAM)2 requires the bureau, post, or unit security officer to
ensure that each new employee signs an SF 312 acknowledging that he or she has read,
understands, and agrees to abide by the Department’s rules for accessing classified information
at the beginning of employment and before accessing classified information. In addition, NIST
SP 800-533 requires Federal agencies to obtain from employees “signed acknowledgement . . .
indicating that they have read, understand, and agree to abide by the rules of behavior, before
authorizing access to information and the information system.”

        DS determined that SFs 312 were missing for two of the four employees because the
security officer (from post) had not submitted the forms. For another employee, the position was
designated nonsensitive, which did not require access to classified information. Therefore, no
briefing was authorized, and the SF 312 was not signed. DS could not determine why the SF 312
was missing for the fourth employee.

       We noted that DS does not have procedures in place to routinely, on a quarterly,
semiannual, or annual basis, reconcile the number of new employees hired by the Department
with the number of SFs 312 received from all of the bureaus and posts. Additionally, DS does

1
  OMB Memorandums M-02-01, Guidance for Preparing and Submitting Security Plans of Action and Milestones; 

M-04-04, E-Authentication Guidance for Federal Agencies; M-06-19, Reporting Incidents Involving Personally

Identifiable Information and Incorporating the Cost for Security in Agency Information Technology Investments; 

and M-10-15, FY 2010 Reporting Instructions for the Federal Information Security Management Act and Agency

Privacy Management. 

2
  12 FAM 563.2, “Responsibilities of Post Security and Unit Officers,” and 12 FAM 564.1, “Briefings - Initial.” 

3
  NIST SP 800-53, rev. 3, PL-4, “Rules of Behavior.”

                                                        2

                                             UNCLASSIFIED
                                       UNCLASSIFIED


not have procedures to identify specific employees who have not completed and signed the SFs
312. (The current process involves manually signing the SFs 312.)

       Without a signed SF 312, the Department has no record that an employee understands
and has acknowledged the rules of behavior for Federal information and information systems and
may not be able to hold an employee accountable for actions that may be contrary to FAM and
NIST requirements.

       Recommendation 1: We recommend that the Bureau of Diplomatic Security (DS)
       develop and implement new internal controls to compare and reconcile, on a quarterly,
       semiannual, or annual basis, the number of signed Standard Forms (SF) 312, Classified
       Information Nondisclosure, for new employees with the actual number of new employees
       hired by the Department of State. The new controls should be designed to identify, by
       bureau or office, personnel who have not completed and submitted a signed SF 312.
       Because of the number of SFs 312 and the manual intensive process in place to compare
       and reconcile SFs 312, DS should consider implementing an automated process.

       Management Response. In the consolidated reply, DS stated that it “respectfully
       disagree[d] with the recommendation based upon the relevant authorities governing the
       use of non disclosure agreements for the use of classified information.” Instead, DS
       stated that the signed acknowledgement (for the rules of behavior) is addressed by the
       Department’s initial and annual cyber security awareness training. DS requested that the
       recommendation “be removed” from the management letter.

       OIG Analysis. Based on management’s statement and the documentation it cited
       describing the internal controls in place to ensure that only authorized individuals are
       granted access to classified systems, OIG considers this recommendation closed. During
       the FY 2011 OIG FISMA evaluation, the initial security awareness training program and
       its supporting documentation will be reviewed.

Lack of Evidence for Enterprise-Wide Business Impact Analysis for Primary Mission
Essential Functions

        The Bureau of Administration, Office of Emergency Management, did not provide
evidence that an enterprise-wide BIA had been conducted. In February 2008, OMB, through the
Department of Homeland Security (DHS), established Federal Continuity Directive 2 (FCD2),
Federal Executive Branch Mission Essential Function and Primary Mission Essential Function
Identification and Submission Process, which requires all Federal agencies to conduct an
enterprise-wide BIA to consolidate the agency’s Primary Mission Essential Functions (PMEF)
under a single recovery document by prioritizing the functions. The PMEF is essential to
identifying critical and essential Department functions that must be performed to support the
performance of National Essential Functions before, during, and after an emergency situation
occurs. Each agency’s PMEF needs to identify critical and primary functions that need to be
performed on either a continuous basis or that need to be resumed within 12 hours after a disaster
or significant event occurs and that must be maintained for up to 30 days or until normal
operations can be resumed.

                                                3

                                       UNCLASSIFIED
                                               UNCLASSIFIED




        The Office of Emergency Management provided copies of the PMEFs but not of the
supporting BIAs. Also, although IRM has performed specific BIAs at the application and system
level, IRM did not provide a copy of the enterprise-wide BIA that prioritizes the recovery
processes based on the Department’s assessment of critical communications support needs for
each of the Department’s mission-essential functions. Therefore, we concluded that the
Department does not have an enterprise-wide BIA.

       Without performing a BIA at the enterprise level in conjunction with the PMEF, the
Department will not meet the requirements set forth in FCD2, which may impact DHS’s efforts
to develop and implement a recovery program to address the National Essential Functions.4

        Additionally, IRM-documented recovery strategies may not be appropriate and relevant
to the Department’s missions to ensure that critical and primary functions are recovered within
the required timeframes and continued at a temporary recovery backup facility for 30 days, as
required by FCD2.

         Recommendation 2: We recommend that the Bureau of Information Resource
         Management, in conjunction with the Bureau of Administration, Office of Emergency
         Management, develop and document a comprehensive enterprise-wide Business Impact
         Analysis in conformance with Federal Continuity Directive 2, Federal Executive Branch
         Mission Essential Function and Primary Mission Essential Function Identification and
         Submission Process.

         Management Response: In the consolidated response, IRM, “in conjunction with” the
         Bureau of Administration, “respectfully disagree[d]” with “the placement” of the
         recommendation in the “instant Management Letter based upon the lack of relevance to
         the controlling authority.” IRM stated that while the requirements specified in FCD2 are
         “critical and essential, any Department weaknesses associated with implementing those
         requirements are not directly relevant to implementation of FISMA and its associated
         authorities.”

         OIG Analysis: OIG considers this recommendation applicable to FISMA, as resiliency
         and contingency planning is directly related to information security and OMB
         specifically asks about the status of BIAs in its annual OIG FISMA metrics. Therefore,
         OIG considers this recommendation unresolved. This recommendation can be closed
         pending OIG’s review and acceptance of Office of Emergency Management and IRM
         documentation for the enterprise-wide BIA for the PMEFs identified, as required by
         OMB.




4
 These functions are defined as the eight functions the President and national leadership will focus on to lead and
sustain the Nation during a catastrophic emergency.
                                                          4

                                               UNCLASSIFIED
                                UNCLASSIFIED



                                                                                   Appendix A



                                                     United States Department of Statl

                                                     If'ashing/on, D.C. 20520




                                                   April 21, 2011


MEMORANDUM

TO :         OIG/AUD - Mr. Jerry Rainwaters

FROM :       lRM/BMP/SPO/SPD - Robert Glunt         \«"
SUBJECT: Response to Draft Management Letter Related to Review of
         Department of State Tnformation Security Program for FY 2010

lRM would like to extend its appreciation for the opportunity to review and
provide comment to the draft Management Letter related to the OIG's review of
the Department of State Information Security Program for FY 2010.

While it is not our intention to provide detailed explanations of implementation
efforts, lRM and the other Bureaus involved preparing the responses, wish to
articulate rationale for lheir position on the two recommendations provided .

Responses were coordinated with the Bureau of Diplomatic Security and the
Bureau of Administration. Please consider this a consolidated reply to your
request.

Lack of Maintenance of Classified Tnformation Nondisclosure Agreements

Recommendation 1: We recommend that the Bureau of Diplomatic Security (OS)
develop and implement new internal controls to compare and reconcile, on a
quarterly, semiannual, or annual basis, the number of signed Standard Forms (SF)
312, Classified Information Nondisclosure, for new employees with the actual
number of new employees hired by the Department of State. The new conlrols
should be designed to identify, by bureau or office, personnel who have nol
completed and submitted a signed SF312. Because of number of SFs 312 and the
manual intensive process in place to compare and reconcile SFs 312, OS should
consider implementing an automaled process.



                                 UNCLASSIFIED




                                          5


                                UNCLASSIFIED
                                  UNCLASSIFIED




Response: The Bureau of Diplomatic Security respectfully disagrees with the
recommendation based upon the relevant authorities governing the usc of non
disclosure agreements for the usc of classified information .

Executi vc Order 12968, Access 10 Classified Information, states in Section 3.1 that
"no cmployee shall be deemed eligible for aeeess to classified information merely
by reason of Federal service or contracting, licensee, certificate holder, or grantee
status or as a matter of right or privilege, or as a result of any panil;ular tilk, rank,
position, or affiliation ." Executive Order 12968 gocs on to say only those
cmployces granted acccss to classified information must "have signed an approved
non disclosure agreement."

Executive Order 13526, Classified National Security Information, states in Section
4.1 that only those "who have met the standards for access to classified
informa ti on shall receive contemporaneous training on the proper safeguarding of
classified inform ation" . The Executive Order defines contemporaneous as a time
period when all three conditions arc satisfied:
   • a favorable determination of eligibility for access has been made by an
      agency head or the agency head's designee;
   • the person has signed an approved nondisclosure agreement; and
   • the person has a need-to-know the information.

The Foreign Affairs Manual section cited by the OIG's Management Letter (e .g.,
12 FAM 564.1) is consistent with the aforementioned Executive Orders where it
states "each new employee is required to read and sign Form SF-312,
Nondisclosure Agreement at the time of entrance on duty and prior to being
afforded access to national security (classified) information."

As such, the applicable Executive Orders and the Department's implementing
policy hoth stand for the proposition that only those individuals granted access to
classified information arc required to execute a non-disclosure agreemenl.

The NIST Special Publication 800-53 cited by the OIG's Management Letter is
misplaced in that the publication does not apply to national security systems and
the cited requirement (e.g., "signed aeknowledgement. .. indicating that they have
read, understand, and agree to abide by the rules of behavior, before au thorizing
access to information and information systems") is addressed by the Department ' s
initial and annual cybcr security awareness trajning.

The Department maintains an up-to-date database of every new cleared employee
that has signed an SF-312. Executed SF-312s are entered into a OS data base and


                                    UNCLASSIFIED




                                            6


                                  UNCLASSIFIED

                                 UNCLASSIFIED




the original form is f'orwarded to HR l'or inclusion in the individual 's official
personnel file (OPF), in accordance with National Archives Office of Information
Security Oversight guidance.

Accord ingly, the Bureau of Diplomatic Security respectfully requests
Recommendation 1 be removed from the Management Letter.

Luck of Evidence for Enterprise-Wide Business Impact Analysis for Primary
Mission l:;ssenrial Functions

Recommendation 2: We recommend that the Bureau of Information Resource
Management, in conjunction with the Bureau of Administration , Office of
Emergency Management, develop and document a comprehensive enterprise-wide
Business Impact Analysis (BIA) in conformance with Federal Continuity Directive
2, Federal Executive Branch Mission Essential Function and Primary Mission
Essential Function Identification and Submission Process.

Response: The Bureau of Information Resource Management. in conjunction with
the Bureau of Administration respectfully disagree with the placement of
Recommendation 2 in the instant Management Letter based upon the lack of
relevance to the controlling authority.

The purpose of the Federal Info rmation Security Management Act of 2002
(rJSMA) is to "provide a comprehensive framework for ensuring the effectiveness
of information security controls over information resources that support Federal
operations and assets."

Federal Cont inu ity Directive 2 (FCD2), Federal Executive Branch Mission
Esselllial Function and Primary Mission Essen tial Function Identification and
Submission Process, was established to help agencies identi fy their Mission
Essential Functions (MEF) and potential Primary Mission Essential Functions
(PMEF). The Bureau of Administration has completed identifying Mission
Essential Functions (MEFs) and Primary Mission Essential Functions (PMEFs) as
required by the Inter Agency Board (lAB). Business Impact Analyses (BIAs) have
been completed for the identified Primary Mission Essential Functio ns (PMEFs).
All processes have been performed in accordance with Federal Continu it y
Directive 2 (FCD2).

While the requirements specified in the Federal Continuity Directive 2 (FCD2), are
critical and essential , any Department weaknesses associated with implementing
those requirements are not directly relevant to implementation of FISMA and its
associated authorities.

                                   UNCLASSIFIED




                                          7


                                 UNCLASSIFIED

                              UNCLASSIFIED





Accordingly, the Bureau of Information Resource Manage ment, in conjunction
with the Bureau of Administration, respectfully request Recommendation 2 he
removed from the instant Management Letter and be include d in an OIG report that
is relevant to the subject matter in question.




                                 UN CLASS IFIED




                                        8


                              UNCLASSIFIED

FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
